                                                      National Railroad Passenger Corporation
                                                      Office of Inspector General
                                                      10 G Street N.E.
	                                                    Washington, DC 20002




           EMPLOYEE INITIATED INAPPROPRIATE SOCIAL MEDIA CONTACT
                                 JULY 30, 2013
                               CASE # DC-13-0168

An Amtrak train attendant contacted a fourteen year old passenger on social media after the
family had traveled on Amtrak. The contact was unwanted and inappropriate. The employee
was terminated after a company hearing for failing to comply with Amtrak’s Standards of
Excellence and Amtrak’s Service Standards Manual.
